No.
In The
Supreme Court of the United States
DAVID G. BOWSER,

Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.
ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR
THE DISTRICT OF COLUMBIA CIRCUIT
PETITIONER’S APPENDIX TO PETITION FOR
WRIT OF CERTIORARI
Leslie McAdoo Gordon
McAdoo Gordon & Associates, P.C.
1140 19th Street, NW
Washington, DC 20036
(202) 293-0534
Email: leslie.mcadoo@mcadoolaw.com

Counsel for Petitioner, David G. Bowser
January 4, 2021

Pet.App. i

APPENDIX TABLE OF CONTENTS
Opinion in the United States Court of Appeals for the
District of Columbia Circuit…………………Pet.App. 1
Order on Rehearing En Banc in the United States
Court of Appeals for the District of Columbia Circuit
.................................................................... Pet.App. 22
Opinion in the United States District Court for the
District of Columbia .................................. Pet.App. 24
Provisions Involved.................................... Pet.App. 68
18 U.S. Code § 1001 ....................... Pet.App. 68
Federal Rule of Criminal Procedure 29
......................................................... Pet.App. 70
Federal Rule of Criminal Procedure 48
......................................................... Pet.App. 73
Day 8 - Morning Session Transcript of Jury Trial
Proceedings Before the Honorable Emmet G.
Sullivan, United States District Court Judge, and a
Jury ............................................................ Pet.App. 74

Pet.App. ii

Day 11 - Afternoon Session Transcript of Jury Trial
Proceedings Before the Honorable Emmet G.
Sullivan, United States District Court Judge, and a
Jury ............................................................ Pet.App. 77
OCE Request for Information ................... Pet.App. 83

Pet.App. 1

UNITED STATES COURT OF APPEALS FOR THE
DISTRICT OF COLUMBIA CIRCUIT
(Argued: March 9, 2020 Decided: June 30, 2020)
Docket No. 18-3055, 18-3062, 19-3037

DAVID G. BOWSER,
Appellant,
v.
UNITED STATES OF AMERICA,
Appellee.

)
)
)
)
)
)
)
)
)
)
)

Before:
HENDERSON, GRIFFITH, and WILKINS, Circuit
Judges.
Opinion for the Court filed by Circuit Judge
GRIFFITH.
A jury convicted David G. Bowser of charges that he
obstructed an investigation by the Office of

Pet.App. 2
Congressional Ethics into his work as chief of staff to
a Member of Congress. In this appeal, we affirm the
jury's verdict and the post-trial rulings of the district
court from all challenges by Bowser and the
Government.
I
A
The evidence at trial established the following.
Bowser began working as the chief of staff for Paul
Broun, a Member of the House of Representatives
from Georgia, in January 2009. Representative
Broun first joined Congress after winning a special
election in 2007, and he was easily re-elected in 2008
and 2010.
In January 2012, Bowser was confident that
Representative Broun would again retain his seat
after the primary and general elections later that
year. But even winning politicians have flaws, and
Representative Broun's was—according to Bowser—
that he struggled with "messaging." Trial Tr. 32:16
(Mar. 15, 2018), J.A. 573. So in February 2012, just
as Representative Broun's office was gearing up for
another election, Bowser sought to hire a "messaging
consultant" to help the Congressman "develop as a
better communicator." J.A. 672. Brett O'Donnell was
a seasoned consultant with experience preparing
President George W. Bush and Senator John McCain
for presidential debates. On June 14, Bowser
announced to the Congressman's office that

Pet.App. 3
O'Donnell would join "Team Broun as a
communications and messaging consultant to our
official office." J.A. 807.
Despite Bowser's explanation that the new hire
would help only with official duties, O'Donnell soon
found himself working on the Congressman's reelection campaign. In fact, on the same day that
Bowser hired O'Donnell, he asked him to assist with
the Congressman's debate preparation. Just a week
later, O'Donnell prepared Representative Broun for
yet another debate. This shift in duties surprised
O'Donnell. He testified at trial that he felt like
Bowser pulled a "bait and switch" by retaining him
"to do work for the official side" and then asking him
to perform campaign functions. Trial Tr. 52:13-20
(Mar. 1, 2018), J.A. 294.
O'Donnell's campaign duties soon decreased. In July
2012, the Congressman won the Republican primary,
and he faced no serious opposition in the general
election. But in early 2013, an incumbent Senator
from Georgia announced his retirement, and
Representative Broun decided to seek the vacant
seat. O'Donnell once again found himself saddled
with campaign duties. He helped prepare the
Congressman for eight Republican primary debates
and several campaign-related speeches and
interviews. O'Donnell testified at trial that, in early
2013, he "was doing 60 percent official work, 40
percent campaign work"; by the end of 2013, he
performed "easily 80 percent campaign work, 20

Pet.App. 4
percent official work." Trial Tr. 101:19-22 (Mar. 5,
2018), J.A. 320.
Nothing prevented O'Donnell from assisting the
campaign as a volunteer or campaign employee, but
House Rules forbade the Congressman's office from
paying O'Donnell out of the "Members'
Representational Allowance" (MRA). The MRA
provides funds "to support the conduct of the official
and representational duties of a Member of the
House of Representatives," 2 U.S.C. § 5341(a); see
also Ida A. Brudnick, Cong. Research Serv., R40962,
Members' Representational Allowance: History and
Usage (2019), and the funds may not pay for
campaign expenses. Between June 2012 and March
2014, O'Donnell was paid over $ 40,000 from the
Congressman's MRA funds. With one minor
exception not relevant here, O'Donnell was paid only
with MRA funds.
This possible misuse of congressional funds soon
attracted media scrutiny. In March 2014, a reporter
asked Representative Broun whether O'Donnell had
been paid with taxpayer money to provide debate
coaching. The Congressman allegedly slammed the
door in the reporter's face, and a local news outlet
published a story with the descriptive title,
"Congressman Slams Door on Channel 2 Reporter
When Asked About Campaign Coach." Because of
this press report, O'Donnell was fired. He testified
that Bowser informed him that "things [had] just
gotten too hot with this story, that it would do
damage to the campaign." Trial Tr. 55:24-25, 56:1

Pet.App. 5
(Mar. 5, 2018), J.A. 333-34. O'Donnell also testified
that, during the same conversation, Bowser told him
for the first time that he had been only a "volunteer
with the campaign." Id. at 56:16-24, J.A. 334
(emphasis added). On March 25, Bowser emailed the
staff in the office to announce that Representative
Broun "reluctantly accepted [O'Donnell's]
resignation." J.A. 823.
This media attention also spurred an inquiry from
the Office of Congressional Ethics (OCE or the
"Office"). The OCE is "an independent office" within
the House that reports to the House Committee on
Ethics and investigates possible misconduct by
Members of Congress or their employees. H.R. Res.
895, 110th Cong. § 1(a) (2008); see Jacob R. Straus,
Cong. Research Serv., R40760, House Office of
Congressional Ethics: History, Authority, and
Procedures (2019). The Speaker of the House and the
House Minority Leader each appoint three private
citizens to serve on the Board, see H.R. Res. 895,
110th Cong. § 1(b) (2008), and the OCE hires
additional staff to conduct its day-to-day business,
see id. § 1(h). The Office may receive allegations of
possible misconduct "from any source," including
news reports and submissions from the public. Trial
Tr. 60:9-19 (Mar. 8, 2018), J.A. 458. And when two
Board members authorize a "preliminary review,"
the Office's staff must review the allegations and
make a recommendation to the Board. If the Board
concludes that misconduct occurred, it may
"recommend[]" that the investigated matter "requires

Pet.App. 6
further review" by the Ethics Committee itself. H.R.
Res. 895, 110th Cong. § 1(c)(2)(B) (2008).
On April 1, 2014, OCE began such a preliminary
review, informing Representative Broun that if he
"misused funds from his [MRA]" to pay O'Donnell
then "he may have violated House rules and federal
law." J.A. 679. Bowser promptly emailed O'Donnell
to reiterate his view that any assistance on the
campaign was voluntary; he had been paid for only
official work. "We hired you," Bowser wrote, "in an
official capacity to help the Congressman improve his
speaking abilities." J.A. 824. "Any debate advice you
wanted to give him on your own time, outside the
official compound, has no bearing on the fact that we
hired you to work in an official capacity . . . ." Id.
In June, the Office issued a series of "Requests for
Information" (RFIs) to the Congressman's staff,
asking for "[a]ll files, records, notes, communications,
and any other documents relating to Brett
O'Donnell." J.A. 683. Bowser's interference
continued. For instance, one staffer testified that he
believed that Bowser instructed him to falsely certify
that he "didn't have any information relevant" to the
review. Trial Tr. 67:10 (Mar. 12, 2018), J.A. 501.
Another testified that—on Bowser's instructions—
she withheld campaign-related emails that she had
exchanged with O'Donnell, Trial Tr. 83-85 (Mar. 7,
2018), J.A. 401-03, including some from her official
account that "looked bad for the office," id. at 86:4,
J.A. 404.

Pet.App. 7
Bowser also received his own RFI, and although
Bowser turned over emails from his official email
account, he never disclosed any emails that he
exchanged with O'Donnell on his personal account.
Bowser also misled investigators about his reasons
for hiring O'Donnell. During his OCE interview, for
instance, he claimed that "at no point did we ever
entertain the idea that this would be a political
adventure. This was purely on the official side." J.A.
701.
The Office's review ended on June 25, 2014, and the
Board recommended that the Ethics Committee
investigate misconduct in Representative Broun's
office. But the committee took no disciplinary action
against the Congressman. Representative Broun lost
the Senate primary and left office in January 2015,
placing him beyond the committee's jurisdiction.
B
Though the Office's review never culminated in
disciplinary action against the former Congressman,
it spawned this criminal prosecution against his chief
of staff. On April 6, 2016, a grand jury charged
Bowser with obstruction of Congress (Count One),
see 18 U.S.C. § 1505; theft of government funds
(Count Two), see id. § 641; concealment of material
facts from the OCE (Count Three), see id. §
1001(a)(1); and five counts of making false
statements to the OCE (Counts Four through Eight),
see id. § 1001(a)(2).

Pet.App. 8
The case proceeded to trial. After the Government
presented its case-in-chief, Bowser filed a motion for
judgments of acquittal on Counts One through
Seven. The district court reserved ruling on this
motion, proceeded with the trial, then submitted the
case to the jury. See Fed. R. Crim. P. 29(b). The jury
convicted Bowser of obstructing Congress, concealing
material facts from OCE, and making three false
statements. The jury acquitted Bowser of two of the
false-statement charges. The jury also indicated that
it was "hopelessly deadlocked" on the theft charge,
and the district court declared a mistrial on that
count. J.A. 105.
The district court then considered Bowser's motion
for judgments of acquittal. At the Government's
request, the district court dismissed the theft charge
with prejudice. Next, the district court granted
Bowser's motion for acquittal on the obstruction-ofCongress charge, reasoning that § 1505 does not
"protect the OCE's investigatory power." J.A. 103.
Finally, the district court denied the motion for
judgments of acquittal on the concealment conviction
and his false-statement convictions.
This appeal followed. The Government challenges
the district court's decision to grant a judgment of
acquittal on the obstruction-of-Congress charge.
Bowser challenges his concealment conviction, two of
the false-statement convictions, and the district
court's decision to dismiss the theft charge with
prejudice instead of granting a judgment of acquittal.
Last, Bowser claims that, because he should have

Pet.App. 9
been acquitted on some of these counts, "spillover
prejudice" requires us to vacate his convictions on
the false-statement charges. We reject both parties'
arguments and affirm.
II
We begin with the Government's appeal of the
district court's order granting a judgment of acquittal
on Bowser's obstruction-of-Congress charge. See 18
U.S.C. § 1505. That statute criminalizes the
obstruction of "any inquiry or investigation [that] is
being had by either House, or any committee of
either House or any joint committee of the Congress."
Id. The Government concedes that the Office is
neither a "House," nor a "committee," nor a "joint
committee." Gov't Br. 49, 53 n.16. Instead, the
Government emphasizes that the statute extends to
any investigations "being had by" the House, which
covers the Office's investigations because "the House
itself initiated [them] through creating the OCE in
the first place." Id. at 48.
We disagree. Section 1505's specific reference to
"either House," "any committee," and "any joint
committee" implies that Congress meant to exclude
other bodies within the Legislative Branch. See

Taylor v. FAA, 895 F.3d 56, 65, 437 U.S. App. D.C.
56 (D.C. Cir. 2018) ("[T]he expression of one thing

implies the exclusion of others."). Indeed, the
statute's failure to include other congressional
"offices" is especially strong evidence of meaning here
because other statutes do. For instance, the False

Pet.App. 10
Statements Act applies to "any investigation or
review, conducted pursuant to the authority of any
committee, subcommittee, commission or office of the
Congress." 18 U.S.C. § 1001(c)(2) (emphasis added);
see also 18 U.S.C. § 202(e)(3) (defining the
"legislative branch" to include both "the Congress"
and "any other . . . office . . . established in the
legislative branch" (emphasis added)). Congress
knows how to refer to legislative offices when it
chooses, and we must give effect to the statute's
tailored language.
Attempting to side-step this textual argument, the
Government urges that the Office's reviews are
investigations "being had by" the House or the Ethics
Committee itself because the Office functions as their
"agent." Gov't Br. 51-53 (citing United States v.

Senffner, 280 F.3d 755, 760 (7th Cir. 2002)

("[W]henever an entity acting for or at the direct
request of an agency has been obstructed, the agency
itself has also been obstructed.")). The argument
fails. First, the Government's agency theory creates
surplusage; if § 1505 were interpreted to criminalize
obstruction of Congress's "agents," then the statute's
inclusion of "committees" and "joint committees"
would do little or no work. Moreover, the House
Rules themselves establish that the Office's review
process is not yet an investigation by the House or
the Ethics Committee. The Office possesses only the
limited power to recommend that the allegations
"require[] further review" by the Ethics Committee,
H.R. Res. 895, 110th Cong. § 1(c)(2)(B) (2008), and
the committee may "undertake an investigation"

Pet.App. 11
"upon receipt of a report" from the OCE. Rules of the
House of Representatives, 116th Cong., Rule
XI.3(b)(2) (2019) (emphasis added). If the Ethics
Committee "undertake[s] an investigation" only after
it receives the Office's report, then the process of
creating that report cannot be an investigation
"being had by" the House or its committee.
We need not decide whether or in precisely what
circumstances a legislative office might work so
closely with the House or a committee that the
investigation is "being had by" an institution listed
within § 1505. See Senffner, 280 F.3d at 760. We
hold only that—in these circumstances—the House
has structured its internal procedures such that the
Office's reviews precede any investigation by the
House or the Ethics Committee. If Congress wishes
to extend liability to those who obstruct the work of
the Office, it may do so, and it has model language
for such an amendment in the False Statements Act.
See 18 U.S.C. § 1001(c)(2). We thus affirm the
judgment of acquittal on the obstruction-of-Congress
charge.
III
We next consider Bowser's challenges to his
convictions.
A
First, Bowser argues that the district court should
have granted his motion for a judgment of acquittal
on the concealment charge. See 18 U.S.C. §

Pet.App. 12

1001(a)(1), (c)(2). Of relevance here, that statute
makes it unlawful to "conceal[] . . . a material fact"
during "any investigation or review" by an "office of
the Congress." Id. To secure a conviction, the
Government must establish a "duty to disclose
material facts on the basis of specific requirements
for disclosure of specific information." United States

v. Safavian, 528 F.3d 957, 964, 381 U.S. App. D.C.
339 (D.C. Cir. 2008). Bowser asserts that he had no

such duty to disclose because "OCE's review was an
entirely voluntary process," and "there [was] no
statute, regulation, or form that imposed on [him] a
specific requirement to disclose particular
information." Bowser Br. 47.
We disagree. Bowser does not dispute that he failed
to produce emails from his personal account between
himself and O'Donnell. He also conceded at oral
argument that a government "form" can impose a
duty to disclose. Oral Arg. Tr. 32:24-25; see also
Safavian, 528 F.3d at 965 n.7; United States v.
Calhoon, 97 F.3d 518, 526 (11th Cir. 1996). Here, the
form that Bowser received—the Request for
Information—identified the "specific information"
that the Office sought, all communications with
O'Donnell. That form also advised Bowser that he
would need to "certify" that he "provided all
[responsive documents," and that this certification
would be "subject to the provisions of the Federal
False Statements Act, 18 U.S.C. § 1001." J.A. 835.
Later, he signed two documents certifying that he
had fully complied with the RFI and acknowledging
that 18 U.S.C. § 1001 applied to his disclosure of

Pet.App. 13
information. J.A. 837, 839. Altogether, Bowser
affirmed that he fully complied with a request for
specific information that was issued during a duly
authorized ethics inquiry. These facts establish a
duty to disclose.
Bowser's efforts to compare his case to Safavian fail.
In that case, the defendant—David Safavian—was
an employee of the General Services Administration
(GSA). Safavian, 528 F.3d at 959. One of Safavian's
friends conducted some business before GSA, and
that friend invited Safavian to travel to Scotland on
a chartered plane for a five-day golfing trip. Id.
Safavian sought "an ethics opinion from GSA's
general counsel about whether he could accept the
air transportation as a gift," but he never disclosed
that the friend conducted business before the GSA.
Id. at 960, 962. Later, GSA's Inspector General
opened an investigation into the trip; Safavian
agreed to be interviewed, but he again failed to
disclose that his friend conducted business before
GSA. Id. at 961. A jury convicted Safavian of two
counts of concealment—one for withholding
information when he requested the ethics opinion,
the other for his incomplete answers to the Inspector
General. Id. at 962-63.
We reversed, reasoning that § 1001(a)(1) requires the
Government to establish "a duty to disclose material
facts on the basis of specific requirements for
disclosure of specific information." Id. at 964
(emphasis added). In Safavian, the Government
asserted two insufficient bases for this duty. First, it

Pet.App. 14
pointed to what we characterized as "vague
standards of conduct for government employees,"
such as an instruction to refrain from "us[ing] public
office for private gain." Id. at 964 (internal quotation
marks omitted). Second, the Government argued that
"once one begins speaking when seeking government
action or in response to questioning, one must
disclose all relevant facts." Id. at 965. But neither of
these sources triggered a duty to disclose because
neither gave "fair notice of what conduct [was]
forbidden." Id. at 964 (internal quotation marks
omitted).
Unlike the defendant in Safavian, Bowser did have
"fair notice" that he could be criminally prosecuted.
The RFI identified the specific information sought
and informed him of possible criminal liability under
§ 1001 if he withheld it. Bowser seems to think that a
voluntary process like an ethics inquiry can never
create a duty to disclose, but that stretches Safavian
too far. Section 1001 extends to "any investigation or
review" by an "office of the Congress," 18 U.S.C. §
1001(c)(2) (emphasis added), and that language
easily encompasses the OCE's voluntary ethics
investigations—so long as the investigator gives "fair
notice." Because the form distributed to and signed
by Bowser satisfies this requirement, we affirm the
concealment conviction.
B
Bowser next argues that the district court should
have granted judgments of acquittal on two of the

Pet.App. 15
false-statement charges, Counts Four and Seven. See
18 US.C. § 1001(a)(1). Count Four charged Bowser
with making a false statement when he told the OCE
investigators, "At no point did we ever entertain the
idea that this [O'Donnell's services] would be a
political adventure. This was purely on the official
side." Indictment ¶ 86, J.A. 67 (emphasis added).
And likewise in Count Seven: "I mean, bottom line is
this was done because [Representative Broun]
significantly needed help in his communicating
ability and that's the only reason why it was done
and, you know, we had no intention at all of doing
anything on the political side with this." Id. ¶ 92,
J.A. 70 (emphasis added). Bowser raises three
challenges to these convictions, but none is
persuasive.
1
Bowser claims that his false-statement convictions
are nonjusticiable under United States v.

Rostenkowski, 59 F.3d 1291, 313 U.S. App. D.C. 303
(D.C. Cir. 1995). There, we noted that the
Constitution's Rulemaking Clause authorizes each
House of Congress to "determine the Rules of its
Proceedings," U.S. Const. art. I, § 5, and we reasoned
that "judicial interpretation of an ambiguous House
Rule runs the risk of the court intruding into the
sphere of influence reserved to the legislative branch
under the Constitution." Rostenkowski, 59 F.3d at
1306. Under Rostenkowski, then, a charge may be
nonjusticiable if it compels the jury to interpret an
"ambiguous" House Rule.

Pet.App. 16
Bowser says that his false-statement convictions
must be dismissed under Rostenkowski. He notes
that the House Rules authorize Congressmen to use
MRA funds for "primarily official duties that are not
campaign related." J.A. 199-201. Bowser suggests
that the false-statement charges invited the jury to
interpret the House Rules by determining Bowser's
"primary purpose" in hiring O'Donnell. Bowser Br.
50-51.
Bowser's Rostenkowski argument fails. As discussed,
the Government alleged that Bowser falsely stated
that he expected O'Donnell to perform only official
work—not campaign work. E.g., Indictment ¶ 86,
J.A. 67 ("This was purely on the official side."). That
allegation does not implicate the House Rules at all.
The Rules concern whether O'Donnell could be
compensated with congressional funds; the
allegations supporting the false-statement charges
concern only what kind of work Bowser anticipated
that O'Donnell would perform. Accordingly, the jury
could convict Bowser of making these false
statements without interpreting the House Rules,
and so the charges were justiciable.
2
Bowser argues that the jury lacked sufficient
evidence to conclude that his statements to the OCE
investigators were false. We owe "tremendous
deference" to the jury's verdict, United States v.

Long, 905 F.2d 1572, 1576, 284 U.S. App. D.C. 405

Pet.App. 17

(D.C. Cir. 1990), and Bowser's conviction must be
upheld if "any rational trier of fact could have found
the essential elements of the crime beyond a
reasonable doubt." United States v. Wahl, 290 F.3d

370, 375, 351 U.S. App. D.C. 284 (D.C. Cir. 2002)
(internal quotation marks omitted).

The standard of review presents an insurmountable
hurdle for Bowser. As the district court noted, a
"voluminous record" supports the jury's verdict that
Bowser always intended for O'Donnell to perform
campaign work. J.A. 122. For instance, Bowser
conducted O'Donnell's interview in the offices of the
National Republican Campaign Committee, a venue
where Republican Congressmen perform campaign
activities that would be impermissible in
congressional office buildings. Perhaps most
tellingly, just two hours after Bowser officially hired
O'Donnell, Bowser asked O'Donnell to assist with
debate preparation. And O'Donnell testified that—
just a month after he had been hired—he felt like
Bowser had pulled a "bait and switch" by "retaining
[him] to do work for the official side" and then asking
him to perform campaign functions. Trial Tr. 52:1320 (Mar. 1, 2018), J.A. 294.
Bowser offers an alternative interpretation. He
suggests that Representative Broun "had no need for
campaign assistance" when Bowser first hired
O'Donnell because the Congressman faced only
"token opposition" in the 2012 election. Bowser Br.
55-56. But the jury is entitled to "draw a vast range
of reasonable inferences," Long, 905 F.2d at 1576,

Pet.App. 18
and a rational factfinder could infer that Bowser
always expected to enlist O'Donnell on the campaign,
regardless of its competitiveness. We decline to
overturn the jury's verdict.
3
Finally, Bowser challenges the jury instructions. The
district court instructed the jury that the statement
must have been "false, fictitious, or fraudulent"—an
instruction that precisely tracks the statute's
language. J.A. 627; 18 U.S.C. § 1001(a)(2). Bowser
claims that the jury should've been instructed that
Bowser's statements "were false under any
reasonable interpretation of them." Bowser Br. 58.
Bowser relies exclusively on the out-of-circuit
decision in United States v. Migliaccio, 34 F.3d 1517
(10th Cir. 1994), but he fails to explain—and we fail
to see—that decision's relevance here. We thus
decline to adopt Bowser's proposed jury instruction.
C
After the jury deadlocked on the theft charge, the
district court dismissed the charge with prejudice.
See FED. R. CRIM. P. 48(a). Unsatisfied with that
result, Bowser argues that he "should have been
acquitted at the close of the Government's case."
Bowser Br. 34 (emphasis added). Bowser again relies
on Rostenkowski, arguing that the theft charge
"asked the jury to invade the legislative province" by
"interpret[ing] internal rules adopted by the House
to govern its own Members." Id. at 38-39.

Pet.App. 19
The Government responds that this claim is moot,
see Gov't Br. 23-25, and we must first address this
threshold jurisdictional issue. Bowser's claim
becomes moot only if "it is impossible for a court to
grant any effectual relief whatever." Chafin v.

Chafin, 568 U.S. 165, 172, 133 S. Ct. 1017, 185 L. Ed.
2d 1 (2013) (internal quotation marks omitted); see
also Almaqrami v. Pompeo, 933 F.3d 774, 779 (D.C.
Cir. 2019).
Bowser contends that the case remains live "because
he has a right to clear his good name." Bowser Reply
8. The "dismissal did not exonerate him," Bowser
says, so he is entitled to seek the judgment of
acquittal, which would amount to a ruling that he
"was in fact innocent." Id. We disagree. Bowser's
Rostenkowski argument entitles him—at most—to a
dismissal of the allegations against him because they
lie beyond a federal court's authority to adjudicate. A
favorable ruling under Rostenkowski would not
announce his innocence; instead, it would announce
that trying the theft charge risks judicial intrusion
"into the sphere of influence reserved to the
legislative branch." Rostenkowski, 59 F.3d at 1306.
Because Bowser's argument under Rostenkowski
would not entitle him to the declaration of innocence
that he seeks, we cannot redress this alleged
reputational harm.
Bowser next claims that "he was prejudiced with
respect to the other charges by [the theft charge's]
existence." Bowser Reply 9. When addressing

Pet.App. 20
mootness, we must assume the success of his
argument on the merits. Almaqrami, 933 F.3d at
779. And if Bowser were correct, we could redress
that harm by vacating for another trial on the other
charges. See United States v. Rooney, 37 F.3d 847,
855 (2d Cir. 1994). This potential remedy keeps
Bowser's claim alive—but barely. We do not think
that Bowser really did suffer prejudice from the
district court's refusal to acquit him before
submitting the theft charge to the jury. Again, the
Government presented overwhelming evidence that
Bowser withheld information from and lied to the
Office—the factual bases for his remaining
convictions. We thus cannot see the theft charge's
"substantial and injurious effect or influence in
determining the jury's verdict." United States v.

Baugham, 449 F.3d 167, 174, 371 U.S. App. D.C. 213
(D.C. Cir. 2006) (internal quotation marks omitted).
Because any error was harmless, we need not
address the merits of Bowser's Rostenkowski
argument.
D
Finally, Bowser claims that we must reverse three of
his false-statement convictions because of a
"prejudicial spillover of evidence" from allowing the
jury to consider the theft, obstruction, and
concealment charges. Bowser Br. 59 (citing Rooney,
37 F.3d at 855); cf. United States v. Mathis, 216 F.3d

18, 25, 342 U.S. App. D.C. 127 (D.C. Cir. 2000)

(discussing the possibility of prejudicial error "when
multiple defendants are charged with a large and

Pet.App. 21
complex conspiracy and spillover prejudice confuses
the jurors"). He faults the district court because the
jury "should have been instructed to disregard the
evidence" relating to these counts. Bowser Br. 61.
But as we've explained, overwhelming evidence
supports the jury's verdict on the false-statement
charges. Rooney, 37 F.3d at 855-56 (considering the
"strength of the government's case on the counts in
question" when assessing spillover prejudice). Thus,
any failure to instruct the jury to ignore evidence
presented for other counts was harmless, and we
decline to vacate Bowser's convictions. See Baugham,
449 F.3d at 174.
IV
We affirm the judgment of the district court.

So ordered.

Pet.App. 22

UNITED STATES COURT OF APPEALS FOR THE
DISTRICT OF COLUMBIA CIRCUIT
(Argued: March 9, 2020 Decided: June 30, 2020
Petition for Rehearing Denied: August 6, 2020)
Docket No. 18-3055, 18-3062, 19-3037

DAVID G. BOWSER,
Appellant,
v.
UNITED STATES OF AMERICA,
Appellee.

)
)
)
)
)
)
)
)
)
)
)

Before:
HENDERSON, GRIFFITH, and WILKINS, Circuit
Judges.
ORDER

Pet.App. 23
Upon consideration of appellant/cross-appellee's
petition for panel rehearing filed on July 14, 2020, it
is
ORDERED that the petition be denied.
Per Curiam

Pet.App. 24

UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF COLUMBIA
(Decided: July 17, 2018)
Docket No. 16-59 (EGS)

UNITED STATES OF AMERICA,
v.
DAVID G. BOWSER,
Defendant.

)
)
)
)
)
)
)
)
)
)

Opinion by:
Emmet G. Sullivan, United States District Judge.
MEMORANDUM OPINION
This case stems from the government's allegations
that David Bowser, who was then Chief of Staff for
former Representative Paul Broun in the United
States House of Representatives, unlawfully used
congressional funds to pay a consultant for campaign

Pet.App. 25
services. Following a four-week trial, the jury
returned guilty verdicts on five counts. Pending before
the Court are the following motions: (1) Mr. Bowser's
motion for a judgment of acquittal following the close
of the government's evidence; (2) Mr. Bowser's motion
for a judgment of acquittal at the close of all evidence;
Mr. Bowser's motion for a judgment of acquittal
notwithstanding the verdict; and (4) the government's
motion to dismiss Count Two of the Indictment. Based
on the evidence in the record, the applicable law, and
the parties' arguments, and for the reasons explained
below, the Court GRANTS IN PART AND DENIES IN
PART Mr. Bowser's motions and GRANTS the
government's motion.
I. BACKGROUND
On April 6, 2016, David Bowser was charged with one
count of obstruction of proceedings in violation of 18
U.S.C. §§ 1505 (Count One); one count of theft of
government property in violation of 18 U.S.C. § 641
(Count Two); one count of concealment of material
facts in violation of 18 U.S.C. §§ 1001(a)(1) and (c)(2)
(Count Three); and five counts of making false
statements in violation of 18 U.S.C. §§ 1001(a)(2) and
(c)(2) (Counts Four through Eight). See generally
Indict., ECF No. 1.1 These charges were based on
allegations that Mr. Bowser, who was the Chief of
Staff to Representative Paul Broun from 2008 until
1 For

the eight counts charged in the indictment, the government
also alleges that Mr. Bowser is liable as an aider or abettor under
18 U.S.C. § 2.

Pet.App. 26
2015, used his position to misappropriate federal
funds to pay a campaign consultant, Brett O'Donnell,
and then obstructed the Office of Congressional
Ethics' investigation of that misappropriation.
Jury selection commenced on February 23, 2018. The
government completed its case-in-chief on March 13,
2018. Pursuant to Federal Rule of Criminal Procedure
29, Mr. Bowser orally moved for a judgment of
acquittal as to Counts One through Seven at the close
of the government's case. Mr. Bowser subsequently
filed a written motion, see ECF No. 72, which was
fully briefed by March 18, 2018, see ECF Nos. 82 and
85. The Court reserved judgment on the motion, and
Mr. Bowser presented his defense. The defense
completed its case-in-chief on March 19, 2018. The
government did not present rebuttal evidence. Mr.
Bowser orally renewed his motion for a judgment of
acquittal and filed a second written motion. See ECF
No. 86. The Court reserved judgment on that motion
until after the jury's verdict.
On March 23, 2018, the jury returned guilty verdicts
on Counts One, Three, Four, Seven, and Eight. See
Jury Verdict, ECF No. 100. The jury acquitted Mr.
Bowser on Counts Five and Six, and it was unable to
reach a unanimous verdict on Count Two. Id.; see also
Jury Note, ECF No. 94. The Court received the jury's
verdict as to the unanimous counts and instructed the
jury to continue deliberations as to Count Two. After
continued deliberations, the jury informed the Court
that it was unable to reach a verdict with respect to
Count Two. See Jury Note, ECF No. 96. The Court
again instructed the jury to continue deliberating. See

Pet.App. 27
3/23/18 Trial Tr., ECF No. 116 at 8-12 (providing antideadlock instruction pursuant to United States v.

Thomas, 449 F.2d 1171, 146 U.S. App. D.C. 95 (D.C.
Cir. 1971)). After further deliberations, the jury

informed the Court that it was still "hopelessly
deadlocked" as to Count Two. See Jury Note, ECF No.
98. At that point, the government stated that "it would
be appropriate to declare a mistrial." Id. at 12. The
Court agreed and, over Mr. Bowser's objection,
determined that it was "manifestly necessary" to
declare a mistrial as the Count Two. Id. at 12-13; see
also Minute Order of March 25, 2018 (explaining that
it was necessary to declare a mistrial given the "jury's
continued inability to reach a verdict" and the
"significant risk that a verdict may result from
pressures inherent in the situation rather than the
considered judgment of all the jurors").
On April 13, 2018, Mr. Bowser filed a motion for a
judgment of acquittal notwithstanding the verdict as
to Counts One, Two, Three, Four, and Seven. See ECF
No. 117. On that same day, the government filed a
notice of its intention not to seek retrial on Count Two
and asked that Count Two be dismissed without
prejudice pursuant to Federal Rule of Civil Procedure
48(a). See ECF Nos. 118 and 119. Mr. Bowser
requested the Court to reserve its ruling on the
government's request to dismiss Count Two until after
it had ruled on his motions for acquittal. See ECF No.
120. The Court subsequently ordered the government
to show cause why Count Two should not be dismissed
with prejudice in view of the government's decision
not to seek retrial on that count. See Minute Order of
June 15, 2018 (citing United States v. Karake, No. 2-

Pet.App. 28

256, 2007 U.S. Dist. LEXIS 98981, 2007 WL 8045732,
at *3 (D.D.C. Feb. 7, 2007)). On June 20, 2018, in
response to the Court's order to show cause, the
government stated that it had no objection to
dismissing Count Two with prejudice. See ECF No.
124. Mr. Bowser nonetheless maintains that a
judgment of acquittal is appropriate. See ECF No.
125.
In his motions, Mr. Bowser argues that Counts One,
Two, Three, Four and Seven fail for the following
reasons:
• Count One, obstruction of proceedings, fails because
the Office of Congressional Ethics does not fall within
the scope of 18 U.S.C. § 1505, which only applies to
the "House" or a "committee" of the House.
• Count Two, theft of government funds, is
nonjusticiable pursuant to United States v.

Rostenkowski, 59 F.3d 1291, 313 U.S. App. D.C. 303
(D.C. Cir. 1995).

• Count Three, concealment of a material fact, fails
because there was no legal duty for Mr. Bowser to
disclose any information to the Office of Congressional
Ethics, as cooperation with that office's investigations
is voluntary.
• Counts Four and Seven, making a false statement,
fail because they are non-justiciable like Count Two
and for the additional reason that the evidence was
insufficient to establish that Mr. Bowser had the
requisite mens rea.

Pet.App. 29
II. LEGAL STANDARD

A. Motion for a Judgment of Acquittal at the Close of
Evidence

Federal Rule of Criminal Procedure 29(a) provides
that, "[a]fter the government closes its evidence or
after the close of all the evidence, the court on the
defendant's motion must enter a judgment of acquittal
of any offense for which the evidence is insufficient to
sustain a conviction." In considering a Rule 29 motion,
"'the trial court must view the evidence in the light
most favorable to the Government giving full play to
the right of the jury to determine credibility, weigh
evidence and draw justifiable inferences of fact.'"

United States v. Treadwell, 760 F.2d 327, 333, 245
U.S. App. D.C. 257 (D.C. Cir. 1985) (quoting United
States v. Davis, 562 F.2d 681, 683, 183 U.S. App. D.C.
162 (D.C. Cir. 1977)). In other words, "the Court must
decide whether a reasonable jury could conclude that
the government met its burden of proving each
element of the offense beyond a reasonable doubt."

United States v. Quinn, 403 F. Supp. 2d 57, 60 (D.D.C.
2005). "The court may reserve decision on the motion,
proceed with the trial (where the motion is made
before the close of all the evidence), submit the case to
the jury, and decide the motion either before the jury
returns a verdict or after it returns a verdict of guilty
or is discharged without having returned a verdict. If
the court reserves decision, it must decide the motion
on the basis of the evidence at the time the ruling was

Pet.App. 30
reserved." Fed. R. Crim. P. 29(b).
B. Motion for a Judgement of Acquittal After the
Verdict
Under Rule 29(c), a defendant may renew a motion for
a judgment of acquittal within fourteen days after a
guilty verdict. Because a court owes "tremendous
deference to a jury verdict," United States v. Long, 905

F.2d 1572, 1576, 284 U.S. App. D.C. 405 (D.C. Cir.
1990), the court "must view the evidence in the light

most favorable to the verdict, and must presume that
the jury has properly carried out its functions of
evaluating the credibility of witnesses, finding the
facts, and drawing justifiable inferences," United

States v. Campbell, 702 F.2d 262, 264, 226 U.S. App.
D.C. 283 (D.C. Cir. 1983). A conviction in a criminal

trial should be upheld if "any rational trier of fact
could have found the essential elements of the crime
beyond a reasonable doubt." United States v. Wahl,

290 F.3d 370, 375, 351 U.S. App. D.C. 284 (D.C. Cir.
2002) (quoting Jackson v. Virginia, 443 U.S. 307, 319,
99 S. Ct. 2781, 61 L. Ed. 2d 560 (1979)). The standard

for "clear[ing] the bar for [a] sufficiency of evidence
challenge" is "very high," and the evidence to support
a conviction does "not need to be overwhelming."

United States v. Pasha, 797 F.3d 1122, 1135 n.9, 418
U.S. App. D.C. 258 (D.C. Cir. 2015). "Thus a judgment
of acquittal is appropriate only when there is no
evidence upon which a reasonable juror might fairly
conclude guilt beyond a reasonable doubt." United

States v. Weisz, 718 F.2d 413, 438, 231 U.S. App. D.C.
1 (D.C. Cir. 1983) (emphasis added).

Pet.App. 31
III. ANALYSIS

A. Count One: Obstruction of Proceedings
Count One charges Mr. Bowser with obstruction of
proceedings in violation of 18 U.S.C. § 1505, which
prohibits an individual from corruptly obstructing or
endeavoring to obstruct "the due and proper exercise
of the power of inquiry . . . by either House, or any
committee of either House or any joint committee of
the Congress." Indict., ECF No. 1 PP 64-80.
Specifically, the government charged Mr. Bowser with
obstructing an official investigation that was
conducted by the Office of Congressional Ethics
("OCE") regarding the use of federal funds by
Congressman Broun's office to pay for consultant
Brett O'Donnell's services to Congressman Broun's
House reelection and Senate campaigns. Id. P 65. For
Mr. Bowser to have been found guilty of violating
section 1505, the government was required to prove
the following elements beyond a reasonable doubt:
(1) that, from in or about March 2014 through in or
about June 2014, there was an inquiry or
investigation being had by the U.S. House of
Representatives or any committee of the House;
(2) that Mr. Bowser knew that the inquiry or
investigation was being had by the U.S. House of
Representatives or any committee of the House; and
(3) that Mr. Bowser did corruptly endeavor to
influence, obstruct or impede the due and proper

Pet.App. 32
exercise of the power of inquiry under which the
investigation or inquiry was being had by the U.S.
House of Representatives or any committee of the
House.

See Jury Instructions, ECF No. 87 at 11; see also 18
U.S.C. § 1505 (explaining that an individual may be
found guilty of violating the section if he "corruptly . .
. influences, obstructs, or impedes or endeavors to
influence, obstruct, or impede . . . the due and proper
exercise of the power of inquiry under which any
inquiry or investigation is being had by either House,
or any committee of either House or any joint
committee of the Congress"). Mr. Bowser argues that
he could not have obstructed a proceeding within the
meaning of section 1505 because the OCE is not the
"House" or "any committee" the House. Def.'s Mot. for
J. of Acquittal ("Def.'s MJOA"), ECF No. 72 at 1.
The issue here is one of pure statutory interpretation:
does the phrase "House, or any committee of either
House or any joint committee of the Congress" as used
in section 1505 include the OCE? The first step "'in
interpreting a statute is to determine whether the
language at issue has a plain and unambiguous
meaning with regard to the particular dispute in the
case.'" United States v. Wilson, 290 F.3d 347, 352, 351
U.S. App. D.C. 261 (D.C. Cir. 2002) (quoting Robinson

v. Shell Oil Co., 519 U.S. 337, 340, 117 S. Ct. 843, 136
L. Ed. 2d 808 (1997)). In determining whether a

statutory term is plain or ambiguous, the court
examines "the language itself, the specific context in
which that language is used, and the broader context
of the statute as a whole." Id. In so doing, "the court

Pet.App. 33
must avoid an interpretation that undermines
congressional purpose considered as a whole when
alternative interpretations consistent with the
legislative purpose are available." United States v.

Braxtonbrown-Smith, 278 F.3d 1348, 1352, 349 U.S.
App. D.C. 399 (D.C. Cir. 2002).

If, after considering "everything from which aid can be
derived," a court "can make no more than a guess as
to what Congress intended," then a court should apply
the rule of lenity. United States v. Muscarello, 524

U.S. 125, 138-39, 118 S. Ct. 1911, 141 L. Ed. 2d 111
(1998); see also United States v. Moore, 613 F.2d 1029,
198 U.S. App. D.C. 296 (D.C. Cir. 1979) (explaining
that criminal statutes "are to be strictly construed"
and "uncertainty regarding their ambit is to be
resolved in favor of lenity"). The rule of lenity counsels
in favor of reading ambiguous criminal statutes "to
ensure both that there is fair warning of the
boundaries of criminal conduct and that legislatures,
not courts, define criminal liability." Crandon v.

United States, 494 U.S. 152, 158, 110 S. Ct. 997, 108
L. Ed. 2d 132 (1990); see also United States v.
Poindexter, 951 F.2d 369, 378, 292 U.S. App. D.C. 389
(D.C. Cir. 1991) ("a penal statute must define the
criminal offense with sufficient definiteness that
ordinary people can understand what conduct it
prohibits, and do so in a manner that does not invite
arbitrary and discriminatory enforcement by which
policemen, prosecutors, and juries . . . pursue their
personal predilections"). Notably, "[t]he simple
existence of some statutory ambiguity . . . is not
sufficient to warrant application of that rule, for most
statutes are ambiguous to some degree." Muscarello,

Pet.App. 34

524 U.S. at 138. Rather, to invoke the rule of lenity,
the court "must conclude that there is a grievous
ambiguity or uncertainty in the statute." Id. at 138-39
(citation and internal quotation marks omitted).
Whether an OCE investigation falls within the scope
of 18 U.S.C. § 1505 appears to be a matter of first
impression. The Court finds that a plain-text reading
of the statute compels the conclusion that the OCE
does not fall within the scope of the statute. Section
1505 prohibits an individual from corruptly
obstructing or endeavoring to obstruct "the due and
proper exercise of the power of inquiry . . . by either

House, or any committee of either House or any joint
committee of the Congress." The government relies on
House Resolution 895 to argue that the OCE is "in the
House" and therefore subject to section 1505. Gov't
Opp'n to Def.'s Mot. for J. of Acquittal ("Gov't MJOA
Opp'n"), ECF No. 82 at 6. The relevant provision of
House Resolution 895 reads as follows:

For the purpose of assisting the House in carrying out
its responsibilities under article I, section 5, clause 2
of the Constitution (commonly referred to as the
"Discipline Clause"), there is established in the House
an independent office to be known as the Office of
Congressional Ethics.
H. Res. 895 § 1(a) (emphasis added). The report
published by the Special Task Force on Ethics
Enforcement in the House of Representatives —
which was created in January 2007 by House Speaker
Nancy Pelosi and then Minority Leader John Boehner
to determine whether the House should create an

Pet.App. 35
"outside" ethics enforcement entity — uses similar
language in describing the OCE, noting that the OCE
was designed to be "an independent office of the House
of Representatives." See Rep. of the Democratic
Members of the Special Task Force on Ethics
Enforcement ("Task Force Rep."), 110th Cong., 1st
sess., H. Prt. 110-1 at 6 (emphasis added); see also id.
(recommending that the OCE be "established as an
independent
office
within
the
House
of
Representatives") (emphasis added). Indeed, the Task
Force considered and expressly rejected the idea of
creating the OCE as an "outside" entity that would be
"separate from the House." Id. at 7. Instead, the Task
Force concluded that establishing the OCE as "an
office within the Legislative Branch," much like
independent offices such as "the Office of the Inspector
General or the Office of the Chief Administrative
Officer," made the most sense from both a
constitutional and practical perspective. Id.
The government also argues that the evidence at trial
established that the OCE is "part of the House in all
meaningful ways." Gov't MJOA Opp'n, ECF No. 82 at
7. For example, at trial, the government introduced
the testimony of Bryson Morgan, a lawyer who served
as investigative counsel for the OCE between
September 2013 and July 2015. See 3/8/18 p.m. Trial
Tr., ECF No. 110 at 47-49. Mr. Morgan testified that
the OCE is designed to assist the House in carrying
out its constitutional obligation to punish its own
members, id. at 50; the OCE's governing board is
composed of individuals appointed by the Speaker of
the House and the House Minority Leader, id.; the
OCE board reports to the House Committee on Ethics,

Pet.App. 36

id. at 53, 55, 65-68; the OCE staff are House
employees, id. at 56-57; the OCE's investigative
authority "is quite broad" and includes investigations
into alleged violations "by a member of the House,
employee of the House, officer of the House in the
conduct of their official duties, id. at 57; and the OCE's
authority to promulgate its own rules comes from the
House, 3/13/18 a.m. Trial Tr. at 93.2
The government's arguments on this point are not
persuasive. Although the government is correct that
the OCE was created to operate within the House, it
is not the "House" itself. Article 1, section 2 of the
Constitution makes clear that the House "shall be
composed of Members chosen every second Year by
the People of the several States." The OCE is
indisputably not composed of "members elected by the
people," and therefore it cannot be "the House" as
defined by the Constitution. To the contrary, a
member of Congress is expressly ineligible to be on the
board of the OCE. See H. Res. 895 § 1(b)(4)(B)(i)(V).
Moreover, a member of the OCE board is not
"considered to be an officer or employee of the House."
Id. § 1(b)(7).
Nor is the OCE a "committee of either House or any
joint committee of the Congress" within the meaning
of section 1505. Rule X of the Rules of the House of
Representatives establishes a number of standing
committees and sets forth their jurisdiction. See Rules
2 To

the extent transcripts of the proceedings are not on the
docket, the Court relies on copies of rough transcripts it has
received.

Pet.App. 37
of the House of Representatives, available at
http://clerk.house.gov/legislative/house-rules.pdf (last
visited July 5, 2018). Although the House Committee
on Ethics is established through those Rules as having
jurisdiction over matters covered by the Code of
Official Conduct, see Rule X § 1(g), the OCE is
not established as a separate committee. Indeed, the
OCE was designed to "advise" the Committee on
Ethics regarding purported ethical violations, but it
was never intended to supplant the work of that
committee. Task Force Rep. at 10 (further explaining
that the OCE would "enhance and supplement the
House ethics process"). Moreover, at trial, Mr. Morgan
squarely testified that the OCE is not a "committee"
or a "joint committee":
Q: [T]he OCE is not a committee of the House?
A. That is correct.
Q. Okay. And it is not a joint committee of the
Congress?
A. Correct.
3/12/18 p.m. Trial Tr., ECF No. 111 at 126. Thus, there
is no evidence in the record to support the conclusion
that the OCE is a committee or a joint committee of
Congress.
The government strains to analogize the OCE to a
congressional subcommittee that has been established
by a House committee to conduct a specific
investigation. Gov't MJOA Opp'n, ECF No. 82 at 8 n.6.
The government posits that the OCE serves "as an
extension of the House Ethics Committee" by
conducting "preliminary investigations" of matters
that are then referred to the Ethics Committee. Id.

Pet.App. 38
To be sure, if the OCE were, in fact, a subcommittee,
it would likely fall into the scope of section 1505. The
Fifth Circuit's decision in United States v. Rainey, 757
F.3d 234 (5th Cir. 2014), is instructive on this point.
In that case, the defendant moved to dismiss a section
1505 charge arguing, inter alia, that the section did
not apply to investigations being conducted by
subcommittees. Id. at 238. In support of his contention
that the term "committee" in section 1505 excludes
"subcommittees," the defendant argued that the court
should look to the "technical" reading of the statute
because it operates in the "congressional context." Id.
at 241-42. Because the term "committee" in the
congressional context meant "a group of legislators,
formally created by and reporting to the House on
particular matters, in accordance with the Rules of
the House," the defendant argued that a
subcommittee could not fall within that definition
because it only "reports to the committee of which it is
a part and not the entire House." Id. at 242.
The district court granted the defendant's motion to
dismiss the section 1505 count. United States v.
Rainey, 946 F. Supp. 2d 518, 537-42 (E.D. La. 2013).
According to the district court, the "crux of the issue"
presented by the defendant's motion was "whether the
word 'committee' in section 1505 should be read in its
generic sense or should be understood in its more
technical sense, as the term is used in the United
States Congress." Id. at 541. As the district court
explained, the "generic connotation" of the word
committee would encompass subcommittees, but
committees and subcommittees "have distinct
meanings" if defined in the "narrow congressional

Pet.App. 39
sense." Id. at 541-42. Given these competing
interpretations, the district court found that section
1505 was "ambiguous" and therefore invoked the rule
of lenity to dismiss the count. Id. at 542.
On appeal, the Fifth Circuit reversed, holding that
under the plain meaning of section 1505, a
congressional subcommittee is "any committee of
either House." 757 F.3d 234, 236. In so doing, the Fifth
Circuit rejected the defendant's narrow reading of
section 1505, explaining that nothing in the statute
"reflect[ed] congressional intention to import a
technical meaning to the phrase 'any committee.'" Id.
at 242. For example, the Court noted that "[s]ection
1505 does not prohibit obstructing any committee that
'reports to either House,' . . . but instead protects 'any
committee of either House.'" Id. Moreover, although
the defendant relied on internal House rules to
support his proposed definition of "committee," the
defendant nowhere explained "why the phrase 'of
either House' crossreferences Congress' internal
regulations into section 1505." Id. Rather, according
to the Fifth Circuit, the plain text of section 1505
suggested that Congress intended a broader
definition:
If Congress intended "committee" as a term of art,
which under [the defendant]'s proposed interpretation
excludes other committee types, "a committee of
either House" would perfectly define the class
intended. The modifier "any," by contrast, suggests
inclusion rather than exclusion.

Id.

Pet.App. 40
The D.C. Circuit's decision in Barenblatt v. United

States, 240 F.2d 875, 100 U.S. App. D.C. 13 (D.C. Cir.
1957), vacated, 354 U.S. 930, 77 S. Ct. 1394, 1 L. Ed.
2d 1533, lends some support to the Fifth Circuit's
broad reading of the phrase "committee." Barenblatt
involved a prosecution under the congressional
contempt statute, 2 U.S.C. § 192, which uses nearly
identical language in criminalizing a witness's refusal
to answer questions pertinent to "any matter under
inquiry before either House, or any joint committee
established by a joint or concurrent resolution of the
two Houses of Congress, or any committee of either
House of Congress." Id. at 877, n.1. The defendant in
that case argued that "Congress did not intend to
make it a crime to refuse to answer questions of a
subcommittee." Id. at 878. The D.C. Circuit disagreed:
Nothing has been shown which reflects that Congress
has indicated such belief. We can only construe the
statute in the light of the obvious purpose for its
enactment. That purpose was to discourage the
impairment of the vital investigative function of
Congress. The function Congress sought to protect is
as often committed to subcommittees as it is to full
committees of Congress, as indeed it must be.
Construing the statute in a manner consistent with its
obvious purpose, we hold that Congress intended the
word 'committee' in its generic sense, which would
include subcommittees.

Id. Here, too, the government stresses that its broad
interpretation of section 1505 to include the OCE is
supported by the statute's purpose, which is to "deter[]
and punish[] obstructions of all congressional

Pet.App. 41
inquiries," and that "the statute is construed broadly
by the courts so as to properly encompass the types of
obstruction envisioned by Congress." Gov't MJOA
Opp, ECF No. 82. at 5-6 (citing, inter alia, United

States v. Cisneros, 26 F. Supp. 2d 24, 38-39 (D.D.C.
1998)).
The Court concludes that the interpretation advanced
by Mr. Bowser hews closer to the statutory text.
Unlike the subcommittees at issue in Rainey and
Barenblatt, the OCE is not composed of members of
Congress; in fact, members of Congress are expressly
precluded from serving on the OCE's board. Moreover,
the OCE's investigations are not directly undertaken
on behalf of the Committee on Ethics, and indeed, the
connection between the OCE and the Ethics
Committee is more tenuous than that between a
subcommittee and a committee. For example, as Mr.
Morgan explained:
So one of the things that distinguishes the OCE from
the House Ethics Committee is that the OCE can
receive allegations from any source, and that was — it
was intended, when the OCE was created, that there
would be more avenues for allegations to be reviewed.
And so it could come from a complaint. Someone could
come to the OCE with evidence that misconduct
occurred. It could be — it could be news reports of
misconduct that come forward. It could be any source.
It could be something that the board or staff discover
upon reviewing information on their own.
3/8/18 p.m. Trial Tr., ECF No. 110 at 60. Thus, the
OCE is permitted to undertake investigations not
requested or authorized by the House Committee on
Ethics.

Pet.App. 42
Even assuming that the House Ethics Committee had
authority to delegate its functions to the OCE and
intended to do so — the scenario presented in both
Rainey and Barenblatt — some showing that the
Ethics Committee did, in fact, authorize the
investigation into the particular subject matter is
critical for a criminal sanction to attach. As the
Supreme Court has cautioned, "[t]he jurisdiction of
the courts cannot be invoked to impose criminal
sanctions in aid of a roving commission." Gojack v.

United States, 384 U.S. 702, 715, 86 S. Ct. 1689, 16 L.
Ed. 2d 870 (1966). Instead, it is "necessary to link the

inquiry conducted by the subcommittee to the grant of
authority dispensed to its parent committee." Id. As
the Gojack court noted, this requirement stems from
the fact that it is "the investigatory power of the
House that is vindicated" by the congressional
contempt statute. Id. at 716.
Here, section 1505 aims to protect investigations
undertaken by "by either House, or any committee of
either House or any joint committee of the Congress"
from obstruction. There is no evidence, however, that
the OCE's investigation was undertaken at the behest
of the House, the House Committee on Ethics, or any
other congressional committee of the House or joint
committee of the Congress. This conclusion is further
buttressed by the fact that the Committee on Ethics
did not take any final action in response to the OCE's
investigation of Congressman Broun. On July 25,
2014, the OCE board issued its report recommending
that the Committee on Ethics "further review" the
allegations because there was a "substantial reason"
to believe that House rules and federal laws were

Pet.App. 43
violated. See OCE Report, Review No. 14-2533,
available
at
https://ethics.house.gov/sites/ethics.house.gov/files/Re
p.%20Broun%20OCE%20Report%20%26%20Finding
s.pdf (last visited July 5, 2018). Although the
Committee on Ethics released the OCE's report and
noted that the Committee was continuing to review
the allegations, it did not take any action before
January 3, 2015. At that point Representative Broun
was no longer a member of the House and therefore
was not subject to the Committee's jurisdiction. See
Press Release, Committee on Ethics, Statement of the
Chairman and Ranking Member of the Committee on
Ethics Regarding Representative Paul Broun (Oct. 29,
2014),
https://ethics.house.gov/pressrelease/statement-chairman-and-ranking-membercommittee-ethics-regarding-representative-paul-0
(last accessed July 5, 2018). As such, there is no
evidence to suggest that Mr. Bowser's obstructive
actions somehow directly impeded the Committee on
Ethics' investigation into a matter within its
jurisdiction. Cf. United States v. Aguilar, 515 U.S.

593, 600-02, 115 S. Ct. 2357, 132 L. Ed. 2d 520 (1995)

("We do not believe that uttering false statements to
an investigating agent . . . who might or might not
testify before a grand jury is sufficient to make out a
violation of the catchall provision of § 1503.").
In short, because the OCE is not the "House, or any
committee of either House or any joint committee of
the Congress," the Court finds that section 1505
should not be read to protect the OCE's investigatory
power. Alternatively, the Court concludes that it
cannot say with certainty that Congress intended to

Pet.App. 44
criminalize obstruction of proceedings being
conducted by the OCE. Accordingly, the Court will
apply the rule of lenity in favor of Mr. Bowser and
grant his motion for a judgement of acquittal on Count
One. See United States v. Granderson, 511 U.S. 39,
54, 114 S. Ct. 1259, 127 L. Ed. 2d 611 (1994) (where
the "text, structure, and history fail to establish that
the Government's [reading of a statute] is
unambiguously correct . . . we apply the rule of lenity
and resolve the ambiguity in [defendant's] favor").
B. Count Two: Theft of Government Funds
Count Two charges Mr. Bowser with theft of
government funds in violation of 18 U.S.C. § 641.
Indict., ECF No. 1 PP 81-82. For Mr. Bowser to have
been found guilty of violating section 641, the
government was required to prove the following
elements beyond a reasonable doubt:
(1) the money described in the Indictment belonged to
the United States;
(2) Mr. Bowser stole or knowingly converted the
money to someone else's use;
(3) Mr. Bowser knowingly and willfully intended to
deprive the United States of the use or benefit of the
money; and
(4) the money had a value greater than $1,000.

See Jury Instructions, ECF No. 87 at 12; see also 18
U.S.C. § 641 (explaining that an individual may be
found guilty of violating the section if he embezzles,
steals, purloins, or knowingly converts to his use or

Pet.App. 45
the use of another . . . any record, voucher, money, or
thing of value of the United States").
The jury could not reach a unanimous verdict on
Count Two, and the Court declared a mistrial at the
government's request after the jury indicated that it
was "hopelessly deadlocked." See Minute Order of
March 25, 2018. The government subsequently
notified the Court that it does not intend to seek
retrial on Count Two and consents to dismissal of that
count with prejudice. See Gov't Notice, ECF 118; Gov't
Resp., ECF No. 124. Mr. Bowser nonetheless
requested that the Court reserve ruling on the
government's motion to dismiss Count Two "until
after it has ruled on the Defendant's motions for
Judgment of Acquittal." See Def.'s Resp. to Gov't Mot.,
ECF No. 120 at 1. Mr. Bowser makes this request
because he believes that the government's evidence
was "insufficient to sustain a conviction" and
therefore, an "acquittal is warranted." Id.

Federal Rule of Criminal Procedure 48(a) provides
that "[t]he government may, with leave of court,
dismiss an indictment, information, or complaint. The
government may not dismiss the prosecution during
trial without the defendant's consent." Mr. Bowser
argues that "the trial in this case is still pending until
the Court rules on his timely Motions for Judgment of
Acquittal," and therefore the Court may not dismiss
Count Two without his consent. Def.'s Reply to Gov't
Resp., ECF No. 125. Rule 48, however, only requires
the government to obtain the defendant's consent
"during trial," and Mr. Bowser has not cited any
authority requiring the government to seek the

Pet.App. 46
defendant's consent after trial. See United States v.
Williams, 720 F.3d 674, 703 (8th Cir. 2013) (holding
that the government only needed leave of the court
and not the defendant's consent to obtain dismissal
after trial). The "principal object of the 'leave of court'
requirement is apparently to protect a defendant
against prosecutorial harassment, e. g., charging,
dismissing, and recharging, when the Government
moves to dismiss an indictment over the defendant's
objection." Rinaldi v. United States, 434 U.S. 22, 29
n.15, 98 S. Ct. 81, 54 L. Ed. 2d 207 (1977). Here, given
that the government consents to dismissal with
prejudice, any concern regarding prosecutorial
harassment is not present. Accordingly, the Court
grants the government's motion and dismisses Count
Two with prejudice.
C. Count Three: Concealment of Material Facts
Count Three charges Mr. Bowser with falsifying,
concealing, or covering up a material fact in a matter
within the jurisdiction of the legislative branch of the
United States government in violation of 18 U.S.C. §
1001(a)(1) and (c)(2). Indict., ECF No. 1 ¶¶ 83-84. For
Mr. Bowser to have been found guilty of concealing a
material fact, the government was required to prove
the following elements beyond a reasonable doubt:
(1) Mr. Bowser falsified, concealed, or covered up a
fact for which there was a legal duty to disclose
imposed by statute, regulation, or government form;
(2) the fact was material;
(3) Mr. Bowser falsified, concealed, or covered up the
fact by using a trick, scheme or device;

Pet.App. 47
(4) Mr. Bowser acted knowingly and willfully; and
(5) Mr. Bowser falsified, concealed, or covered up the
material fact in a matter within the jurisdiction of the
legislative branch of the government of the United
States.

See Jury Instructions, ECF No. 87 at 13. The
government charged Mr. Bowser with concealing
information in four ways: (1) lying to the OCE, (2)
withholding documents from OCE investigators, (3)
attempting to influence the testimony of other
witnesses before the OCE, and (4) attempting to
prevent other witnesses from providing their
documents to OCE investigators. Indict., ECF No. 1
¶¶ 84(a)-(d).
Relying on United States v. Safavian, 528 F.3d 957,
381 U.S. App. D.C. 339 (D.C. Cir. 2008), Mr. Bowser
argues that he cannot be guilty of Count Three
because he had no specific duty to disclose any
information to the OCE. See Def.'s MJOA, ECF No. 72
at 8-11. He points out that compliance with the OCE's
investigative demands is entirely voluntary, and that
there was no requirement that Mr. Bowser or other
members of Congressman Broun's staff submit to
OCE interviews or provide documents to the OCE in
the first instance. Id. at 9. Mr. Bowser further argues
that his decision to participate in the OCE's
investigation did not impose upon him any new duty
to disclose because section 1001 does not demand
"that individuals choose between saying everything
and saying nothing." Id. at 10 (citing Safavian, 528
F.3d at 965).

Pet.App. 48
A section 1001 violation predicated on concealment, as
opposed to a false representation, requires the
government to prove that the defendant had a legal
duty to disclose the concealed information. See United

States v. Safavian, 528 F.3d 957, 964, 381 U.S. App.
D.C. 339 (D.C. Cir. 2008) ("Concealment cases in

this circuit and others have found a duty to disclose
material facts on the basis of specific requirements for
disclosure of specific information."); United States v.
Calhoon, 97 F.3d 518, 526 (11th Cir. 1996) ("Falsity
through concealment exists where disclosure of the
concealed information is required by a statute,
government regulation, or form.").
In Safavian, a jury found the defendant guilty of
concealing relevant information from (1) an ethics
officer in the course of seeking an ethics opinion and
(2) the General Services Administration in the course
of that agency's investigation. 528 F.3d at 963.
Specifically, the defendant had requested advice from
the ethics officer but purportedly failed to provide all
the information that would have been relevant to the
officer in rendering his opinion. Id. at 964. Likewise,
the defendant purportedly failed to provide complete
information to the agency's investigator with whom he
voluntarily met. Id. On appeal, the D.C. Circuit
reversed the defendant's convictions on these
concealment counts, holding that the government had
failed to identify a duty to disclose. With respect to the
defendant's failure to provide complete information to
the ethics officer, the D.C. Circuit noted that it was
not clear "how th[e] voluntary system" of seeking
ethical advice — which the defendant was ultimately
free to follow or disregard —"impose[d] a duty on those

Pet.App. 49
seeking ethical advise to disclose . . . 'all relevant
information' upon pain of prosecution for violating §
1001(a)(1)." Id. Instead, any duty to disclose must
arise from "specific requirements for disclosure of
specific information" so that the a defendant has "fair
notice . . . of what conduct is forbidden." Id. The
Circuit also rejected the government's argument that
"once one begins speaking when seeking government
action or in response to questioning, one must disclose
all relevant facts." Id. at 965. Noting that there was
no "regulation or form or statute" that contained such
a requirement, the court found that nothing in section
1001 "demands that individuals choose between
saying everything and saying nothing." Id.
This case is inapposite. The government argued in
Safavian that the defendant's duty to disclose
information was imposed upon him not by statute,
regulation, or government form, but by "standards of
conduct for government employees," which provided
fourteen "general principles" of behavior. Id. at 964.
The D.C. Circuit concluded that these standards were
"vague" and that the "ethical principles" embodied in
them did not impose a clear duty on an executive
employee to disclose information. Id. at 964-65. Here,
Mr. Bowser's duty to disclose information to the OCE
is not the result of vague "general principles." Rather,
Mr. Bowser's legal duties were far clearer. One June
3, 2014, Mr. Bowser received a letter from the OCE
requesting all documents relating to Brett O'Donnell.
See Gov't Trial Ex. 503. The letter stated as follows:
"If you are not providing a requested document or
piece of information, then please identify the
document or information withheld and the reason why

Pet.App. 50
it is being withheld." Id. Even more, the certification
form accompanying the letter read as follows:
I certify that I have not knowingly and willfully
withheld, redacted or otherwise altered any
information requested in the Office of Congressional
Ethics' ("OCE") Request for Information, dated 6/9/14,
or if I have withheld, redacted or otherwise altered
any requested information, then I have identified the
information and why it was withheld, redacted, or
otherwise altered. This certification is given subject to

18 U.S.C. § 1001 (commonly known as the False
Statements Act) and OCE Rule 4(A)(2).
Gov't Trial Ex. 507 (emphasis added). Mr. Bowser
signed and dated this certification form and submitted
it to the OCE along with his document production.
3/12/18 a.m. Trial Tr. 8:4-12:6. Likewise, prior to his
interview with OCE investigators on June 24, 2014,
Mr. Bowser received and executed an 18 U.S.C. § 1001
Acknowledgment Form. The form stated: "I have been
provided with a copy of the text of section 1001 of title
18, United States Code (popularly known as the False
Statements Act) and hereby acknowledge that it
applies to any testimony or documents I provide to the
Office of Congressional Ethics." Gov't Trial Ex. 516.
Mr. Bowser signed this certification before the
beginning of his interview with the OCE. 3/12/18 a.m.
Trial Tr. 41:1-42:8.
Mr. Bowser contends that he cannot be found guilty of
concealment "based on [his] alleged false statements
to OCE" because "[a] false statement alone cannot
constitute a 'trick, scheme, or device' proscribed by the

Pet.App. 51
concealment offense." Def.'s Reply, ECF No. 85 at 6-7.
Thus, he argues, his false certifications "simply
exposed" him to criminal prosecution pursuant to the
false statement portion of the statute. Id. at 7.
Although Mr. Bowser is correct that an affirmative act
by which a material fact is concealed is necessary to
prove a violation of the concealment prong of 18 U.S.C.
§ 1001, see United States v. London, 550 F.2d 206, 213
(5th Cir. 1977), the government has alleged, and a
reasonable jury could have found, an affirmative act
here. Specifically, based on the evidence adduced in
the government's case-in-chief, a reasonable jury
could conclude that Mr. Bowser's decision not to
produce his personal emails discussing Mr.
O'Donnell's work on Congressman Broun's campaign
and his false statements to the OCE investigators in
the course of his interview in the face of his express
duty to provide full disclosure, were "affirmative" acts
constituting a "trick, scheme or device" by which facts
were concealed. See, e.g., United States v. Dale, 782
F. Supp. 615, 626 (D.D.C. 1991) ("The case law is clear
that the deliberate failure to disclose material facts in
the face of a specific duty to disclose such information
constitutes a violation of the concealment provision of
§ 1001."). As another court explained, "[w]hile the
concealment of a fact that no one has a legal duty to
disclose may not be a violation of [section 1001], such
is not the case where a regulation or form requires
disclosure." United States v. Perlmutter, 656 F. Supp.
782, 789 (S.D.N.Y. 1987), aff'd, 835 F.2d 1430 (2d Cir.
1987). A defendant's nondisclosure in such a
circumstance is "distinguishable from a 'passive
failure to disclose' or 'mere silence in the face of an

Pet.App. 52
unasked question.'" Dale, 782 F. Supp. at 627.
Here, although Mr. Bowser may not have had any
preexisting duty to disclose documents or information
to the OCE, a duty was imposed upon him after he
signed forms agreeing that he would not "falsif[y],
coneal[], or cover[] up by any trick, scheme, or device"
a "material fact" within the purview of the OCE's
investigation. See Gov't Trial Exs. 507 and 516. The
purpose of these certifications is to provide the OCE a
"tool" by which it can "protect the veracity of the
information" that it receives. 3/12/18 a.m. Trial Tr.
11:2-7. As Mr. Morgan explained during the trial, the
OCE "require[s] people to submit this certification and
represent to our office that they have provided us with
the complete production of documents, and they do
that under penalty of the False Statements Act as a
method of protecting or providing some credibility to
that assertion." Id. 11:8-12. Because these forms
advised Mr. Bowser that he was required to fully
disclose material facts relevant to the OCE's inquiries,
Mr. Bowser's failure to disclose in these circumstances
constituted an affirmative act sufficient to form the
basis of a concealment charge. Accordingly, the
evidence adduced in the government's case-in-chief is
sufficient to support Mr. Bowser's concealment
conviction.
D. Counts Four and Seven: False Statements
Counts Four and Seven charge Mr. Bowser with
making a false statement in a matter within the
jurisdiction of the legislative branch of the United

Pet.App. 53
States government in violation of 18 U.S.C. § 1001.
Indict., ECF No. 1 ¶¶ 85-86, 91-92. For Mr. Bowser to
have been found guilty of making a false statement,
the government was required to prove the following
elements beyond a reasonable doubt:
(1) Mr. Bowser made the statement, as charged in
Counts Four through Eight;3
(2) the statement was false, fictitious, or fraudulent;
(3) the statement was material;
(4) Mr. Bowser acted knowingly and willfully; and
(5) the false statement pertained to a matter within
the jurisdiction of the legislative branch of the
government of the United States.

See Jury Instructions, ECF No. 87 at 14. Count Four
charged Mr. Bowser of making the following false
statement:
. . . at no point did we ever entertain the idea this
[O'Donnell's services] would be a political adventure.
This was purely on the official side.
Indict., ECF No. 1 ¶ 86. Count Seven charged Mr.
Bowser of making the following false statement:

3 Counts

Five, Six and Eight also charged Mr. Bowser with
making false statements. See Indict., ECF No. 1 ¶¶ 87-90, 93-94.
The jury returned a verdict of not guilty on Counts Five and Six,
so the Court need not consider Mr. Bowser's arguments with
respect to those counts. In addition, Mr. Bowser does not
challenge the government's case or his conviction on Count
Eight, which charged him with making a false statement when
he signed the Request for Information Certification verifying he
had not withheld any information during the course of the OCE
investigation.

Pet.App. 54
I mean, bottom line is this was done because
Congressman Broun significantly needed help in his
communicating ability and that's the only reason why
it was done and, you know, we had no intention at all
of doing anything on the political side with this.

Id. ¶ 92.
Mr. Bowser argues in his motions that Counts Four
and Seven are non-justiciable under United States v.

Rostenkowski, 59 F.3d 1291, 313 U.S. App. D.C. 303
(D.C. Cir. 1995). He also argues that the evidence
presented at trial was insufficient to establish that he
had the requisite mens rea. The Court addresses each
argument in turn.
1. Counts Four and Seven are Justiciable

Mr. Bowser argues that Counts Four and Seven must
be dismissed as non-justiciable because there is no
"judicially discoverable or manageable standard" to
apply to determine whether Mr. Bowser's statements
are true or false. Def.'s MJOA, ECF No. 72 at 11.
Specifically, he points to House rules that provide that
certain expenditures may be paid from congressional
funds so long as the "primary purpose" of the
expenditure is "representational" and not "campaignrelated." Id. at 12.4 He argues that a jury would be
4 The

parties stipulated to the following at trial: "The House rules
do not permit [Members' Representational Allowance] funds to
be used to pay for campaign expenses or campaignrelated
political party expenses. In other words, these rules require that
official resources of the House must be used for the performance

Pet.App. 55
required to interpret these House rules and determine
the "primary purpose" of Mr. O'Donnell's work for
Congressman Broun in order to resolve these counts.
Id. Because the Constitution reserves to each House
the authority to make its own rules, Mr. Bowser
asserts that judicial or juror interpretation of the
meaning of the "primary purpose" rule would intrude
on the sphere of the legislative branch because "the
court would effectively be making the Rules." Id. at 13;
see also id. ("The jury cannot be permitted to second
guess whether this was the 'primary purpose' for
hiring O'Donnell because 'there is too great a chance
that it will interpret the Rule differently than would
the Congress itself[.]").
To support his arguments, Mr. Bowser relies on

United States v. Rostenkowski, 59 F.3d 1291, 313 U.S.
App. D.C. 303 (D.C. Cir. 1995). In that case, a

congressman was charged with, among other things,
using his congressional allowance to purchase "a
variety of valuable consumer goods and gift
merchandise . . . including armchairs, luggage, sets of
china, and crystal sculptures of the U.S. Capitol . . .
to be paid for as supplies necessary for the official use,
of official business of the House, and those resources may not be
used for campaign or political purposes. . . . MRA funds may be
spent to perform what are primarily official duties that are not
campaign related but that have a side effect that has political or
campaign-related benefits. For example, a congressional
employee, whose salary is paid for with MRA funds, can write a
bill that the Member introduces and then the Member can later
talk about that bill at a campaign event as a reason why he or
she should be elected." Tr. Stip. No. 6, 2/27/18 Trial Tr. p.m., ECF
No. 103 at 116-117.

Pet.App. 56
when in fact the goods he obtained were for the
personal use of himself, his family, or his friends." Id.
at 1311. The congressman argued that, to resolve the
charge, the court would be required to draw a line
between "official use" and "personal use" by reference
to ambiguous House rules. Id. The "question" before
the court was whether those terms were "sufficiently
clear, either inherently or as interpreted by the House
itself," such that they could be applied to the facts
alleged in the indictment. Id. at 1309. The D.C. Circuit
found that, "while the House Rules certainly
contemplate a line between the 'official' and the
'personal,' they do little to indicate where that
boundary lies." Id. at 1311. The Circuit explained that
its justiciability analysis turned on whether it could
determine "that the facts set out in a particular
allegation could not be authorized under any
reasonable interpretation of the House Rules." Id. at
1310 (emphasis added). Thus, for example, because
purchase of gifts with official funds was clearly
prohibited by the relevant House rule, allegations that
the congressman purchased items for the use of
"family, or his friends" were justiciable. Id. at 1311. To
the extent the government's case depended on a
showing that the congressman had purchased the
items for "personal use," however, the case was nonjusticiable because "without explanation in the
Rules," the term "personal use" was "too ambiguous to
support the prosecution of a Member of Congress." Id.
Mr. Bowser's arguments are a red herring, and his
case can be distinguished from Rostenkowski. With
respect to Counts Four and Seven, the government
was required to show beyond a reasonable doubt that

Pet.App. 57
the following statements made by Mr. Bowser were
false:
• " . . . at no point did we ever entertain the idea this
[O'Donnell's services] would be a political adventure.
This was purely on the official side."
• "I mean, bottom line is this was done because
Congressman Broun significantly needed help in his
communicating ability and that's the only reason why
it was done and, you know, we had no intention at all
of doing anything on the political side with this."
Indict., ECF No. 1 ¶¶ 86, 92. Mr. Bowser attempts to
analogize this case to Rostenkowski by pointing to the
"primary purpose" rule, which requires a member of
Congress to determine whether the primary purpose
of a
particular expense is "official
and
representational" or "campaign-related," and only
allows reimbursement for "expenses the primary
purpose of which are official and representational."
Def.'s MJOA, ECF No. 72 at 12. Mr. Bowser asserts
that the jury cannot decide whether he lied as alleged
in Counts Four and Seven without first determining
whether the "primary purpose" of Mr. O'Donnell's
employment was "official" or "campaign-related."
Def.'s Mot. for J. Notwithstanding the Verdict, ECF
No. 117 at 9-10. Because the line between "official
work" and "campaign work" is ambiguous, he
concludes that these counts are non-justiciable. Id. at
10.
As Mr. Bowser acknowledges, however, the "primary
purpose" rule relates to whether certain expenditures
are reimbursable from congressional funds. Def.'s
MJOA, ECF No. 72 at 12 (emphasis added).

Pet.App. 58
Conviction for the false statement counts, however,
turns on Mr. Bowser's intent in employing Brett
O'Donnell between 2012 and 2014. For the
government to succeed on these counts, it needed to
prove, among other things, that the statements made
by Mr. Bowser to the OCE were materially false. In
particular, the government needed to show that Mr.
Bowser's statement that he never entertained the
idea that Mr. O'Donnell's services would be "political"
was false. Likewise, the government needed to show
that Mr. Bowser's statement that he and
Congressman Broun never intended for Mr. O'Donnell
to provide services "on the political side" was false.
Such a showing in no way depends on whether Mr.
O'Donnell's
salary
was
reimbursable
from
congressional funds or any other interpretation of the
"primary purpose" rule. To the contrary, even if the
government conceded that the primary purpose of Mr.
O'Donnell's work was official, Mr. Bowser could still
be found to have lied to the OCE if a jury concluded
that Mr. Bowser intended for some portion of Mr.
O'Donnell's work to be "political" or "on the political
side." Accordingly, the Court declines to dismiss
Counts Four and Seven as non-justiciable.
2. There Is Sufficient Evidence Of Mens Rea To
Sustain A Conviction On Counts Four And Seven
Mr. Bowser also argues that his convictions on Counts
Four and Seven fail because there is insufficient
evidence of mens rea to sustain his conviction.
Specifically, he argues that if he believed in good faith
that Mr. O'Donnell was employed to provide official,

Pet.App. 59
rather than campaign, services to Congressman
Broun, he lacked the necessary mens rea to make a
false statement within the scope of section 1001. Def.'s
Mot. for J. of Acquittal Notwithstanding the Verdict,
ECF No. 117 at 10-16. In support of these arguments,
Mr. Bowser reiterates the same arguments he
advanced at trial, namely:
• Congressman Broun did not need campaign
assistance when he hired Mr. O'Donnell in 2012
because Congressman Broun was the overwhelming
favorite to win the primary and faced no opposition in
the general election.
• Mr. O'Donnell was hired "as a communications and
messaging consultant" for the "official side" of
Congressman Broun's office, and Mr. O'Donnell's
contract reflected this fact.
• Mr. O'Donnell volunteered his services to
Congressman
Broun's
campaigns,
as
was
"commonplace" among staff in the House.
• Mr. O'Donnell complained about not being paid for
his services to Congressman Broun's Senate campaign
and requested to be reimbursed from the campaign,
which suggests that Mr. O'Donnell was not, in fact,
being paid for his campaign work.

Id. Mr. Bowser argues that, based on the facts
adduced at trial, no reasonable jury could conclude
that "Mr. Bowser knew from the outset that the
employment arrangement with O'Donnell was
impermissible and that he deliberately lied to OCE
about that arrangement." Id. at 16.
In considering a defendant's motion for a judgment of

Pet.App. 60
acquittal at the close of evidence, the Court "must
view the evidence in the light most favorable to the
Government, giving full play to the right of the jury to
determine credibility, weigh evidence and draw
justifiable inferences of fact." United States v.

Treadwell, 760 F.2d 327, 333, 245 U.S. App. D.C. 257
(D.C. Cir. 1985) (citation and internal quotation
marks omitted, emphasis added). Once a jury returns
a verdict, the Court's standard of review is even more
deferential: a court owes "tremendous deference" to
the verdict, United States v. Long, 905 F.2d 1572,
1576, 284 U.S. App. D.C. 405 (D.C. Cir. 1990), and his
convictions must be upheld if "any rational trier of fact
could have found the essential elements of the crime
beyond a reasonable doubt." United States v. Wahl,

290 F.3d 370, 375, 351 U.S. App. D.C. 284 (D.C. Cir.
2002) (emphasis added).

The evidence at trial, viewed in the light most
favorable to the government, was sufficient to
establish that Mr. Bowser "knowingly and willfully"
made false statements to the OCE when he stated that
"at no point did we ever entertain the idea this
[O'Donnell's services] would be a political adventure"
and that "we had no intention at all of doing anything
on the political side with this." Although the Court
will not summarize the entire, voluminous record
adduced in the government's case-in-chief on this
issue, the Court outlines some of the evidence that
supports the mens rea element of the government's
false statement counts.
On the first day of trial, the government elicited
testimony from Stephen Allen, a messaging

Pet.App. 61
consultant who had also interviewed for the role for
which Mr. O'Donnell was eventually hired. Mr. Allen
testified that, based on his meeting with Mr. Bowser
and Congressman Broun, it was initially his
understanding that they were seeking a consultant
who would be able to provide "campaign services."
2/27/18 Trial Tr. p.m., ECF No. 103 at 32-33. Mr. Allen
further testified that, after a subsequent meeting with
Congressman Broun, it was his understanding that
the Congressman "was on a crusade and wanted to go
around the country talking about conservative
causes." Id. at 113. Mr. Allen agreed with the
government that the crusade was a "political venture"
to the extent Congressman Broun intended to
"advocate[e] conservative principles and causes." Id.
at 114.
Brett O'Donnell also testified at trial and explained
the nature of his work for Congressman Broun. He
stated that, although it was his understanding that he
would primarily be providing official services to the
congressman, he was also asked to assist the
congressman in preparing for campaign activities
within days of being hired. Trial Tr. 3/1/18 a.m. 132139. As he continued to work for Congressman Broun,
Mr. O'Donnell testified that he routinely consulted
with the congressman on campaign messaging and
strategy. See, e.g., 3/5/18 Trial Tr. a.m. 34, 36-37, 3940. For example, in the course of discussing an email
regarding Mr. O'Donnell's availability to prepare
Congressman Broun for a campaign interview, Mr.
O'Donnell confirmed that he prepared the
congressman for a number of campaign events:
Q. Other than this particular example, were there

Pet.App. 62
other occasions where you would meet or speak with
the Congressman to prepare him for upcoming
campaign events?
A. There are.
Q. Okay. And we're going to talk about debates in a
moment, but what other — what are campaign
A. Speeches, media interviews that might be focused
on the campaign, those kinds of events.
3/5/18 Trial Tr. a.m. 81-82. Mr. O'Donnell even spoke
with Congressman Broun's wife on a number of
occasions about "direction on messaging for the
campaign" and "how to stay on message." 3/5/18 Trial
Tr. a.m. 31. Furthermore, Mr. O'Donnell testified that
he spent an increasing proportion of his time
providing services to Congressman Broun's campaign
over the course of 2013 and into 2014.
A. In early 2013, I would say I was doing 60 percent
official work, 40 percent campaign work. By the end of
2013, that was easily 80 percent campaign work, 20
percent official work.
Q. During the same period — and, again, we're
referring to December of '13 to March of '14 — were
you in communication with the defendant?
A. I was.
Q. Approximately how often?
A. Maybe even daily via e-mail, at least a couple of
times by phone, and then in and out of the office a time
or two a week.
...
Q. And how is it that you would describe the substance
of your conversations with the defendant during this
period?
A. Most of them centered around campaign

Pet.App. 63
messaging, strategy, debates, things that were
happening on the campaign side.
Q. Could you give the jury some examples or a
sampling of what kind of discussions you were having
with the defendant during that time?
A. Yes. We might have been discussing an upcoming
debate and what needed to be done to prepare the
candidate for that debate, what our overall message
in the debate would be, logistics for the debate, the
format of the debate, so we might talk about a range
of things relative to that one particular event or we
could be talking about how the campaign was going,
generally. Particularly on the messaging side we
might talk about specific media interviews that he had
done or was going to do. So there were a variety of
discussions that could have occurred.
Q. How about your communications with
Congressman Broun during this period?
A. Mostly centered on the campaign. There would be
some time for official work, if there was a press release
going out from the office or things that were
happening on the official side that we would message
to, but mainly relative to the campaign; meetings in
and out of the office, whether they were in the official
office or down at Jamestown Associates when we were
preparing for debates, would center around the
campaign and what was happening relative to him or
his competitors in the race.
Q. I asked you earlier about who it was that set the
agenda for the work that you were doing, whether it
be official or campaign. You had mentioned Mr.
Bowser; is that right?
A. Correct.

Pet.App. 64
Q. Same true during this period, or someone else?
A. Absolutely, Mr. Bowser, with input from Christine
in terms of some of the tactical considerations that we
needed to review. But primarily David Bowser would
set the agenda for what I should be working with on
Dr. Broun.
3/5/18 Trial Tr. a.m. 101-103. Based on this testimony,
the Court concludes that a reasonable jury could
conclude that the government met its burden of
proving mens rea sufficient to support a conviction
under 18 U.S.C. § 1001. Furthermore, to the extent
that Mr. Bowser offered contrary testimony, it was the
jury's role to "resolve conflicts in the testimony, to
weigh the evidence, and to draw reasonable
inferences." Jackson v. Virginia, 443 U.S. 307, 319, 99
S. Ct. 2781, 61 L. Ed. 2d 560 (1979).
Moreover, the Court specifically and clearly
instructed the jury on Mr. Bowser's theory of the case:
Mr. Bowser asserts that the four statements he made
to the OCE which are charged as alleged false
statements in Counts IV, V, VI and VII were, in fact,
truthful statements and also were based on opinions
or beliefs he honestly held in good faith at the time he
made them. . . . Good faith is a complete defense to all
of the charges in this case. A statement made with
good faith belief in its accuracy does not amount to a
false statement and is not a crime. The burden of
establishing lack of good faith and criminal intent
rests on the government. A defendant is under no
burden to prove his good faith; rather, the government
must prove bad faith or knowledge of falsity beyond a

Pet.App. 65
reasonable doubt.
Jury Instructions, ECF No. 87 at 16. After receiving
the evidence and hearing this instructions, a
reasonable jury could find that, both at the time of the
hiring decision and continuing through 2014, Mr.
Bowser contemplated that Mr. O'Donnell would
provide some services on the "political side" in his
work for Congressman Broun. Accordingly, the Court
denies Mr. Bowser's motions as to Counts Four and
Seven.
IV. CONCLUSION
For the reasons set forth above, the Court GRANTS
Mr. Bowser's motion for a judgment of acquittal as to
Count One. The Court also GRANTS the
government's motion to dismiss Count Two and
dismisses that count with prejudice. Finally, the
Court DENIES Mr. Bowser's motions with respect to
Counts Two, Three, Four, Five, Six, and Seven. An
Order accompanies this Memorandum Opinion.
SO ORDERED.
SIGNED: /s/ Emmet G. Sullivan
United States District Court Judge
July 17, 2018
ORDER
For the reasons set forth in the accompanying

Pet.App. 66
Memorandum Opinion, it is hereby ORDERED that
the government's motion to dismiss Count Two [ECF
No. 119] is GRANTED and Count Two is DISMISSED
WITH PREJUDICE.
It is FURTHER ORDERED that defendant David G.
Bowser's motion for a judgment of acquittal at the
close of the government's case [ECF No. 72] is
GRANTED IN PART AND DENIED IN PART as
follows:
(1) Mr. Bowser's motion is GRANTED as to Count
One, obstruction of proceedings in violation of 18
U.S.C. § 1505, and Count One is DISMISSED WITH
PREJUDICE; and
(2) Mr. Bowser's motion is DENIED AS MOOT as to
Counts Two, Five, and Six; and
(3) Mr. Bowser's motion is DENIED as to Counts
Three, Four and Seven.
It is FURTHER ORDERED that Mr. Bowser's motion
for a judgment of acquittal at the close of all evidence
[ECF No. 86] is DENIED AS MOOT as to Counts One,
Two, Five, and Six and DENIED as to counts Three,
Four, and Seven.
It is FURTHER ORDERED that Mr. Bower's motion
for a judgment of acquittal notwithstanding the
verdict [ECF No. 117] is DENIED AS MOOT as to
Counts One and Two, and DENIED as to Counts
Three, Four, and Seven.
It is FURTHER ORDERED that the motions' hearing
set for July 18, 2018 is VACATED.

Pet.App. 67
It is FURTHER ORDERED that the parties shall
submit a proposed schedule for obtaining a
presentence report and submitting memoranda in aid
of sentencing, along with three proposed dates and
times for sentencing, by no later than July 31, 2018.
It is FURTHER ORDERED that the parties shall
contact the courtroom deputy, Mark Coates, to make
arrangements to retrieve copies of exhibits and other
trial materials from the Courtroom.
SO ORDERED.
SIGNED: /s/ Emmet G. Sullivan
United States District Court Judge
July 17, 2018

Pet.App. 68
PROVISIONS INVOLVED
18 U.S. Code § 1001 - Statements or entries
generally
(a) Except as otherwise provided in this section,
whoever, in any matter within the jurisdiction of the
executive, legislative, or judicial branch of the
Government of the United States, knowingly and
willfully—
(1) falsifies, conceals, or covers up by any trick,
scheme, or device a material fact;
(2) makes any materially false, fictitious, or
fraudulent statement or representation; or
(3) makes or uses any false writing or document
knowing the same to contain any materially false,
fictitious, or fraudulent statement or entry;
shall be fined under this title, imprisoned not more
than 5 years or, if the offense involves international
or domestic terrorism (as defined in section 2331),
imprisoned not more than 8 years, or both. If the
matter relates to an offense under chapter 109A,
109B, 110, or 117, or section 1591, then the term of
imprisonment imposed under this section shall be
not more than 8 years.
(b) Subsection (a) does not apply to a party to a
judicial proceeding, or that party’s counsel, for
statements, representations, writings or documents
submitted by such party or counsel to a judge or
magistrate in that proceeding.
(c)With respect to any matter within the jurisdiction
of the legislative branch, subsection (a) shall apply
only to—

Pet.App. 69
(1) administrative matters, including a claim for
payment, a matter related to the procurement of
property or services, personnel or employment
practices, or support services, or a document
required by law, rule, or regulation to be submitted
to the Congress or any office or officer within the
legislative branch; or
(2) any investigation or review, conducted pursuant
to the authority of any committee, subcommittee,
commission or office of the Congress, consistent with
applicable rules of the House or Senate.

Pet.App. 70
Federal Rule of Criminal Procedure 29- Motion for a
Judgment of Acquittal
(a) BEFORE SUBMISSION TO THE JURY. After the
government closes its evidence or after the close of
all the evidence, the court on the defendant's motion
must enter a judgment of acquittal of any offense for
which the evidence is insufficient to sustain a
conviction. The court may on its own consider
whether the evidence is insufficient to sustain a
conviction. If the court denies a motion for a
judgment of acquittal at the close of the
government's evidence, the defendant may offer
evidence without having reserved the right to do so.
(b) RESERVING DECISION. The court may reserve
decision on the motion, proceed with the trial (where
the motion is made before the close of all the
evidence), submit the case to the jury, and decide the
motion either before the jury returns a verdict or
after it returns a verdict of guilty or is discharged
without having returned a verdict. If the court
reserves decision, it must decide the motion on the
basis of the evidence at the time the ruling was
reserved.
(c) AFTER JURY VERDICT OR DISCHARGE.
(1) Time for a Motion. A defendant may move for a
judgment of acquittal, or renew such a motion,
within 14 days after a guilty verdict or after the
court discharges the jury, whichever is later.
(2) Ruling on the Motion. If the jury has returned a
guilty verdict, the court may set aside the verdict

Pet.App. 71
and enter an acquittal. If the jury has failed to
return a verdict, the court may enter a judgment of
acquittal.
(3) No Prior Motion Required. A defendant is not
required to move for a judgment of acquittal before
the court submits the case to the jury as a
prerequisite for making such a motion after jury
discharge.
(d) CONDITIONAL RULING ON A MOTION FOR A NEW
TRIAL.
(1) Motion for a New Trial. If the court enters a
judgment of acquittal after a guilty verdict, the court
must also conditionally determine whether any
motion for a new trial should be granted if the
judgment of acquittal is later vacated or reversed.
The court must specify the reasons for that
determination.
(2) Finality. The court's order conditionally granting
a motion for a new trial does not affect the finality of
the judgment of acquittal.
(3) Appeal.
(A) Grant of a Motion for a New Trial. If the court
conditionally grants a motion for a new trial and an
appellate court later reverses the judgment of
acquittal, the trial court must proceed with the new
trial unless the appellate court orders otherwise.
(B) Denial of a Motion for a New Trial. If the court
conditionally denies a motion for a new trial, an
appellee may assert that the denial was erroneous. If
the appellate court later reverses the judgment of

Pet.App. 72
acquittal, the trial court must proceed as the
appellate court directs.

Pet.App. 73
Federal Rule of Criminal Procedure 48- Dismissal
(a) BY THE GOVERNMENT. The government may, with
leave of court, dismiss an indictment, information, or
complaint. The government may not dismiss the
prosecution during trial without the defendant's
consent.
(b) BY THE COURT. The court may dismiss an
indictment, information, or complaint if unnecessary
delay occurs in:
(1) presenting a charge to a grand jury;
(2) filing an information against a defendant; or
(3) bringing a defendant to trial.

Pet.App. 74

UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF COLUMBIA
Docket No. 16-59 (EGS)
(Dated March 12, 2018
9:10 a.m.)

UNITED STATES OF AMERICA,
v.
DAVID G. BOWSER,
Defendant.

)
)
)
)
)
)
)
)
)
)

DAY 8 - MORNING SESSION TRANSCRIPT OF
JURY TRIAL PROCEEDINGS BEFORE THE
HONORABLE EMMET G. SULLIVAN, UNITED
STATES DISTRICT COURT JUDGE, and a JURY
APPEARANCES:
For the Government:
Todd William Gee, Assistant U.S. Attorney
U.S. DEPARTMENT OF JUSTICE

Pet.App. 75
Criminal Division, Public Integrity Section
1400 New York Avenue, NW
12th Floor
Washington, DC 20005
(202) 514-9751
Email: todd.gee2@usdoj.gov
Sean F. Mulryne, Assistant U.S. Attorney
U.S. DEPARTMENT OF JUSTICE
Public Integrity Section
1400 New York Avenue, NW
Washington, DC 20005
(202) 598-2816
Fax: (202) 514-3003
Email: sean.mulryne@usdoj.gov
For the Defendant:
Leslie McAdoo Gordon
McADOO GORDON & ASSOCIATES
1140 19th Street, NW
Washington, D.C. 20036
(202) 293-0534
leslie.mcadoo@mcadoolaw.com
Court Reporter:
Scott L. Wallace, RDR, CRR
Official Court Reporter
(202)354-3196
scottlyn01@aol.com
EXAMINATIONS - DIRECT EXAMINATION OF
BRYSON MORGAN BY MR. MULRYNE

Pet.App. 76
[p. 14]
A. Well, I think I explained last Thursday, it was
very important to the investigation for us to have all
the
communications between Congressman Broun's
office and individuals who worked on his campaigns
and Brett O'Donnell. I would expect those
communications to take place not only in
using official e-mail accounts, but also using personal
e-mail accounts to the extent -- or personal or
campaign e-mail accounts to the extent that Brett
O'Donnell was providing services to the campaigns.
Q. Why would you expect this?
A. The House rules require that campaign activity be
conducted using -- not using official resources, that
includes an e-mail account. So I would have expected
that folks, even if they worked for the congressional
office, that when they were doing campaign activity
they would be using personal or campaign e-mail
accounts.

Pet.App. 77
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF COLUMBIA
Docket No. 16-59 (EGS)
(Dated March 15, 2018
1:37 p.m.)

UNITED STATES OF AMERICA,
v.
DAVID G. BOWSER,
Defendant.

)
)
)
)
)
)
)
)
)
)

DAY 11 – AFTERNOON SESSION
TRANSCRIPT OF JURY TRIAL
HELD BEFORE THE HONORABLE EMMET G.
SULLIVAN
UNITED STATES DISTRICT JUDGE
APPEARANCES:
For the United States:
TODD WILLIAM GEE, ESQ.
SEAN F. MULRYNE, ESQ.

Pet.App. 78
U.S. DEPARTMENT OF JUSTICE
PUBLIC INTEGRITY SECTION
1400 New York Avenue, NW
Washington, D.C. 20005
(202) 514-9751
todd.gee2@usdoj.gov
For the Defendant:
LESLIE S. McADOO GORDON, ESQ.
McADOO GORDON & ASSOCIATES
1140 19th Street, NW
Washington, D.C. 20036
(202) 293-0534
leslie.mcadoo@mcadoolaw.com
Court Reporter:
Lisa A. Moreira, RDR, CRR
Official Court Reporter
U.S. Courthouse, Room 6718
333 Constitution Avenue, NW
Washington, DC 20001
202-354-3187
Proceedings recorded by mechanical stenography;
transcript produced by computer-aided transcription
EXAMINATIONS - CROSS EXAMINATION OF
DAVID BOWSER BY MR. GEE
[p. 152]
Q. And you knew it got sent to Mr. Findlay before
Bryson

Pet.App. 79
Morgan told you they'd take a supplemental
production from you, right?
A. Yes.
Q. And you knew Josh Findlay had the title of
campaign
manager in that Senate race, right?
A. Yes.
Q. Josh Findlay never worked for the congressional
office
except for as an intern before you even were there,
right?
A. Right.
Q. But you didn't think the OCE cared about Brett
O'Donnell's campaign work even though Josh
Findlay got a letter?
A. I didn't think about that, no. I -Q. You knew that Paul Kilgore got this letter also,
right?
A. Yes.
Q. Paul Kilgore was the campaign treasurer, right?
A. Yes.
Q. He didn't do any work for the official office, right?
A. No.
Q. And even though you knew Paul Kilgore got this
letter,
you thought OCE only cared about Brett O'Donnell's
official work?
A. From me, yes.
Q. And after receiving this letter, you didn't provide
the
[p. 153]

Pet.App. 80
OCE any of your personal emails, did you?
A. I don't believe so.
Q. You don't believe so, or you didn't?
A. I didn't.
Q. And you'd agree with me that the vast majority of
your
campaign-related emails with Brett O'Donnell are on
the
official side?
A. I'm sorry, the vast majority of my emails with
Brett
O'Donnell are official? Sure.
Q. I'm sorry. Let me rephrase. Thank you.
You'd agree with me that the vast majority of your
emails with Brett O'Donnell about campaign activity
were
sent and received on your Yahoo personal email
account,
correct, sir?
A. About campaign activity, yes.
Q. And there was some testimony here today about
when
Ms. Hardman came to see you about her own
production, right?
A. Yes.
Q. Now, I understand that you say that she came to
you and
asked if she should provide her personal, and you
said, "Use your own discretion." You remember it
differently than her,
right?
A. That's how I recall it, yes.
Q. You heard her testimony. She actually remembers

Pet.App. 81
gathering all her personal emails and gathering all
her
[p. 154]
official and starting to sort them and then asking
you, and
you saying you only have to provide official for now.
You
heard all that testimony?
A. I heard that testimony, yes.
Q. She actually remembers sorting and everything,
right?
A. That's what she testified to, yes.
Q. Yes. And she remembers that you told her just the
official for now, right?
A. That's what she said, yes.
Q. But what you remember regardless is you
remember
saying -- and you remember also that -- we'll go to
this.
Ms. Hardman also remembers a second conversation
where she asked you whether she should provide the
campaign
emails on her official account, and you said, "Use
your
discretion." You heard that testimony, right?
A. I believe so, yes.
Q. And now you don't remember it that same way,
right?
A. No. I remember we had three conversations.
Q. Okay. Now, the part you do remember, the way
you

Pet.App. 82
remember it is that she asked you if she should
provide her
personal, and you said, "Use your discretion." That's
the
way you remember it, right?
A. Yes.
Q. All right. Let's take it the way you remember it.

Pet.App. 83

000673

Pet.App. 84

000674

